DISTRICT OF COLUMBIA
109 Second Street NE
Washington, DC 20002
Tel 202-289-1776
Fax 407-875-0770
www.LC.org

FLORIDA
1053 Maitland Center Cmns Blvd
Maitland, FL 32751
Tel 407-875-1776
Fax 407-875-0770

VIRGINIA
1065 Airport Rd
Lynchburg, VA 24502
Tel 407-875-1776
Fax 407-875-0770
Liberty@LC.org

REPLY TO FLORIDA

May 19, 2021
Via Electronic Filing
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
RE:

Calvary Chapel of Bangor v. Mills, No. 20-1346
Petitioners’ Opposition to Request for Extension of Time to File Response
to Petition for Writ of Certiorari

Dear Clerk Harris:
Respondent Governor waited until the last days of her response period to waive
any response to Petitioner’s Petition, and now seeks another 30-day delay on top of
that lengthy period. As explained herein, Respondent’s tactic appears calculated to
delay action on Petitioner’s Petition until after the Court’s summer break, and thus
also delay Petitioner’s right to emergency relief in the currently pending district court
proceedings. The Clerk should deny the requested extension.
This Court has acted at least 10 times on a number of cases involving virtually
identical and equally unconstitutional discriminatory restrictions on religious worship
services during the COVID-19 pandemic. See, e.g., Roman Catholic Diocese of Brooklyn
v. Cuomo, 141 S. Ct. 63 (2020); Agudath Israel of Am. v. Cuomo, 141 S. Ct. 889 (2020);
South Bay United Pentecostal Church v. Newsom, 141 S. Ct. 716 (2021); Tandon v.
Newsom, 141 S. Ct. 1294 (2021); Gateway City Church v. Newsom, 141 S. Ct. 1460
(2021); Harvest Rock Church, Inc. v. Newsom, 141 S. Ct. 1289( 2021); Harvest Rock
Church, Inc. v. Newsom, 141 S. Ct. 889 (2020); Gish v. Newsom, 141 S. Ct. 1290 (2021);
High Plains Harvest Church v. Polis, 141 S. Ct. 527 (2020); Robinson v. Murphy, 141
S. Ct. 972 (2020). In each of these instances, the Court either granted an emergency
injunction pending appeal or granted certiorari, vacated the lower court’s erroneous

Calvary Chapel of Bangor v. Mills
No. 20-1346
Response Opposing Motion for Extension of Time
May 19, 2021
Page 2 of 3
judgments, and remanded with instructions to follow this Court’s clear teachings. The
same should occur here.
Nevertheless, despite the abundant decisions from this Court within the last
six months, the Governor seeks to further delay Petitioner’s relief from this Court by
requesting another 30 days to respond to Petitioner’s Petition. The Petition raises
issues of seminal importance to the First Amendment. Indeed, in a matter very similar
to the issues presented in the instant Petition, this Court held that “[t]he restrictions
at issue here, by effectively barring many from attending religious services, strike at
the very heart of the First Amendment’s guarantee of religious liberty. Before allowing
this to occur, we have a duty to conduct a serious examination of the need for such a
drastic measure.” Roman Catholic Diocese of Brooklyn v. Cuomo, 141 S. Ct. 63, 68
(2020).
Respondent’s unconstitutional and discriminatory restrictions have been
ongoing for over an entire year, and Petitioner has been scratching and clawing for
relief since May 5, 2020. All told, Petitioner has been subject to unconstitutional
restrictions on its fundamental exercise of religious worship services for 379 days. As
this Court said in Catholic Diocese, even 7 and 13 days was too long to permit ongoing
irreparable harm to fundamental First Amendment liberties. 141 S. Ct. at 67 (“There
can be no question that the challenged restrictions, if enforced, will cause irreparable
harm. ‘The loss of First Amendment freedoms, for even minimal periods of time,
unquestionably constitutes irreparable injury.’” (quoting Elrod v. Burns, 427 U.S. 347,
373 (1976)). Respondent’s requested further delay imposes irreparable harm on
Petitioner by having to wait for final adjudication by this Court of these critical issues.
Respondent claims that Petitioner will suffer no prejudice by the granting of an
extension, but this is simply untrue as a matter of law. As this Court said in Tandon,
“even if the government withdraws or modifies a COVID restriction in the course of
litigation, that does not necessarily moot the case.” 141 S. Ct. at 1297. “And so long as
a case is not moot, litigants otherwise entitled to emergency injunctive relief remain
entitled to such relief where the applicants ‘remain under a constant threat’ that
government officials will use their power to reinstate the challenged restrictions.” Id.
(citing Catholic Diocese, 141 S. Ct. at 68). Here, Petitioner remains under the current
restrictions on their religious exercise, and the Governor continues to maintain the
ability to reinstate her unconstitutional restrictions at any time.

Calvary Chapel of Bangor v. Mills
No. 20-1346
Response Opposing Motion for Extension of Time
May 19, 2021
Page 3 of 3
Critically, even while Petitioner’s Petition is pending in this Court, Petitioner
is still attempting to obtain preliminary injunctive relief in the district court, where
Petitioner filed a renewed motion for preliminary injunction. However, at a status
conference on May 17, 2021, the district court advised the parties that it was inclined
to hold that motion in abeyance pending this Court’s disposition of the Petition.
Respondent then requested a 30-day extension from this Court. If granted, this
extension will guarantee that this Court will not be able to review and act on the
Petition prior to its summer break. This, in turn, will likely delay Petitioner’s relief on
the preliminary injunction in the district court by many months. The Clerk should not
permit this apparent tactic to deprive Petitioner of timely relief.
For the foregoing reasons, Petitioner respectfully requests that Respondent’s
request for an extension be denied. In the alternative, this Court should – as it did in
numerous other cases – issue an emergency writ of injunction pending review of the
Petition.

Respectfully submitted,

Mathew D. Staver (Counsel of Record)
Anita L. Staver
Horatio G. Mihet
Roger K. Gannam
Daniel J. Schmid
LIBERTY COUNSEL
P.O. Box 540774
Orlando, FL 32854
(407) 875-1776
court@LC.org
cc:

Christopher Taub, Counsel for Respondent

